V

NO.
INTHE
SUPREME COURT OF THE UNITED STATES
CAROLYN BARNES, and Children, Plaintiff-Appellant
v.
UNITED STATES OF AMERICA; U.S. CENSUS BUREAU;
FEDERAL BUREAU OF INVESTIGATION; U.S. DEPARTMENT
OF COMMERCE; U.S. DEPARTMENT OF JUSTICE; ET AL.,
Defendants-Appellees
MOTION TO PROCEED IN FORMA PAUPERIS
Petitioner requests leave of court to file the accompanying Petition for
Writ of Certiorari without prepayment of costs and to proceed in forma
pauperis.
Petitioner has previously been granted leave to proceed in forma
pauperis m: the following court(s)District Court for the Western District of Texas
Court of Appeals for the 5th Circuit
State district courts in Travis, Williamson, and Hamilton County
State courts of appeals in Austin and Texarkana
Petitioner's affidavit or declaration in support of this motion is attached
hereto.
spectfully submitted,

arnes
Can
419 Indian Trail
Leander, Texas 78641
512-817-8014

1

V

V

AFFIDAVIT OR DECLARATION
IN SUPPORT DF MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

I,

g £*»*s**

irrpay

the costa of this case or to give security therefor; and I believe I

entitled to retaw!

L S°5 2 ^0U

yQUr spouse estimate the average amount of money received from each of
the past 12 months- A4io-t any amo^^T^ re^
amounts that
quartor^sermannually> or annually to show the monthly rate. Use gross
amounts, that is, amounts before any deductions for taxes or otherwise
^

Income source

Average monthly amount during
the past 12 months
You

Amount expected
next month

Spouse

You

Spouse .

M-M&r %Mjk— tf)One.
bkst^L,
s Mone~
%-N/k 8 /l/W_

S 4/A
$ a/A
$ A/ZA'

Employment

$.

Self-employment

$.

Income from real property
(such as rental income)

$.

Interest and dividends

$.

4/ttae. $ A/Ik s /14?p, %J/A

Gifts

$.

Mm, %jllk_ 8/1be Um

Alimony

$.

ikm. sMA- s/iW 8 ijPT

Child Support

$.

mm sMM- sNone J\//a

Retirement (such as social
security, pensions,
annuities, insurance)

$.

Disability (such as soda!
security, insurance payments)

$.

Unemployment payments

$.

Public-assistance
(such as welfare)

*.

Other (specify):

$.

$.

$ hf/flc

8 A/pns 8

sJ]A %J\k'HP.
mm %JjA tMn
$.

$.

0t?

Total monthly income: $.

1

.

$
$.

$.

00

r $.

$.

N

2. List your employment history for the past two years, most recent first. (Gross monthly pay
is before taxes or other deductions.)
Employer

Address

Oates of

Gross monthly pay

jLk wt)(MlnW (l/)hMmnyn^D/^ f

d^ixvy vvaj^j)

u) hltpalif (inuTr

$

. List your spouse’s employment history for the past tw
(Gross monthly pay is before taxes or other deductions.)
Employer

Address

recent employer first.

Dates of
Employment

Gross monthly pay
$
$
$

4. How much cash do you and your spouse have? $ _______________________
Below, state any money you or your spouse have in bank accounts or in any other financial
institution.
ioanciali,.^

ion

Type of account

Amount you have

Amount your spouse has

$.

$.
$.
$.

ftetHonenf $
$Adoo-

5. List the assets, and their values, which you own or your spouse owns. Do not list clothing
and ordinary household furnishings.
s'Home

□ Other rea

ite

Value
□ Motor Vehicle #1
Year, m^te & model
Value (H.hDD^

Description
Value____
I

X^t

uji-faxvrc

Un
OjfttJjLt, Of

©/? £■

'V,
V;

6. State every person business, or organization owing you or your spouse money, and the

amount owedQ^^

Q, |L

f ££$ \lofok, +

your spouse moneyi

1/
'r

^£>

$.

$.

$.

$.

7. State the persons who rely on you or your spouse for support.
Name

^ pfl.\SVfauaJfr;
JmiA pUWfrn.

-Omu7

QZ)ts

\X)P VbjMpT^.il Un^ Ina

vjMirfr u

+

te the average monthly expenses of yo^ind your family. Show separately the amounts

8. Ei

paid by your spouse. Adjust any payments that are made weekly, biweekly, quarterly, or
annually to show the monthly rate.
You

(include mZZT^L,

Your spouse

)%)<§£
$.

Are real estate taxes included? □ Yes 5Wo ^
Is property insurance included? □ Yes
No
Utilities (electricity, heating fuel,
water, sewer, and telephone)

$.

$.

Home maintenance (repairs and upkeep) |
$.

Clothing

$.

Laundry and dry-cleaning
Medical and dental expenses

I no
me

(i)@>

Food

Mk

fe)i*w m£*>r\\ ya\nt.
Transportation (not includingjnotor vehicje payments)

/VJf\

Recreation, entertainment, newspapers, magazines, etc.'
Insurance (not deducted from wages or included in mortgage payments)
Homeowner’s or renter’s
Life
Health
Motor Vehicle
Other:
Taxes (not deducted from wages or included in mortgage payments)
(specify):
Installment payments
Motor Vehicle
Credit card(s)
Department store(s)
Other:

Regular expenses for operation of business, profession,
or farm (attach detailed statement)
Other (specify):
Total monthly expenses:

Your spouse
$
$.

9. Do you expect any major changes to your monthly income or expenses or in your assets or
liabilities during the next 12 mont

DYes

o

|V

)

If yes, describe on an attached sheet.

EkHi Eiddv\ fawe

kejfCMes i'K (k ue

j

l

y

10. Have you paid - or will you paying - an attorney any money for
ices in connection
with this case, including the completion of this form? □ Yes [pfNo , ,
/ . (j

V
'^

'h*>eT
If yes, state the attorney’s name, address, and telephone number

y

’

11. Have you paid—or will you be paying—anyone other than an attorney (such as a paralegal or
a typist) any money for services in connection with this
including the completion of this
form? I\^ _ Dm .. livl .
^
Lh

ra^

If yes, how much?
If yes, state the person’s name, address, and telephone number

12. Provide any other information that will help explain why you cannot pay the costs of this case.

becox-besZS- UBS

)r) Ez>)l,y
>y~\ obblE

Ef'fblec£
Executed on:

SWORN DECLARATION
I swear or affirm under penalty of perjury that, because of my poverty, I
cannot prepay the filing and docket fees or post a bond for them. I am entitled
to redress. I swear or affirm under penalty of perjury under United States
laws that my answers on this form are true and correct. 28 U.S.C. sec. 1746;
18 U.S.C. sec. 1621.
My only income is SS of $1080 a month. Other than my home, I own no other
property. I have been gainfully employed my entire adult life until the
partnership in official lawlessness retaliated against me based on my gender,
religious beliefs, advocacy, associations, and activism. These attorneys
serving in official capacities, but acting ultra vires pursuant to a criminal
enterprise committed aggravated assault, burglary, aggravated kidnapping,
false imprisonment, aggravated perjury, bribery, tampering with the
witnesses, tampering with the evidence, official oppression, abuse of office,
theft, and other high crimes and misdemeanors to effectuate the arrest on my
life and person and confiscation, theft, vandalism, and complete destruction
of all that I had owned, and the concealment of their crimes and violations of
both state and federal law. During the lengthy pretrial captivity where I was
subjected to torture, extended interrogation, and constant threats for two
years, my home was repeatedly broken into, burglarized, and vandalized,
which was the intent of these predators. The success of this RICO enterprise
would not have occurred but for the criminal conduct of attorneys who
hijacked the courts and denied me my right to an examining trial, right to
testify before the grand jury, right to a speedy trial, right to legal capacity,
right to due process, right to equal protection under the law, right to conduct
discovery, right to be present, right to participate, right to cross-examine
witnesses, right to confront evidence, right to shuffle the jury, right to strike
biased and unfair panel members, right to present an opening statement,
right to present motions and be heard on motions I had filed, right to see
evidence, right to present evidence, right to defend myself, right to appeal,
right to seek habeas corpus and be heard on the petition, and right to be
heard in a timely, meaningful, or reasonable manner in either the trial or
appellate courts and in both state and federal courts due to the partnership
in official lawlessness that existed between attorneys and political cronies
within the corrupted, bigoted, misogynous, racist Republican Party of Texas.
I executed a power of attorney from my illegal captivity in June 2011, but a
Williamson County judge fraudulently and illegally enjoined my agent from
acting to protect my property, care for my minor child and other children, pay
my attorneys and bills, and generally handle my affairs. I had a legal right to
execute a power of attorney in June 2011 and at all times. Had this CARTEL
not repeatedly violated my civil rights to insure that I would not have a right
to be present, to notice, to be heard, to participate, to effective assistance of

2

counsel or to a speedy and fair trial or access to the Brady} Giglio,2 Kyles?
and Stricklei4 material, I would not have been interned pretrial without due
process, involuntarily committed in abstentia, wrongfully convicted,
summarily disfranchised, and summarily disbarred based on aggravated
perjury secured with a $5,500 bribe and other tampering, tampering with
evidence and process, and fraud on the court. The misogynous malice and
retaliatory animus of these five men was evident throughout the proceedings.
The construction and use of the cruel and unusual Star Chamber was pure
evil. The corruption is overwhelming, and the concealment revealing of how
systemic the misogynous malice is within the judiciary. The majority of the
courts in this nation have no respect for women and they hate professional
women who do not kowtow, comply, and cooperate.
I do still have my 1997 or 1998 Jeep Grand Cherokee but it does not run.
Apparently, after sitting for 10 years, it has become the home of field mice.
The transmission needs to be replaced.
I have a son who has been supporting me ever since he turned 18. He was
only 15 when this nightmare began. He is a waiter and makes the mortgage
payment, helps with expenses, and pays the taxes. I am not able to borrow
any money because I have insufficient income to pay the debt. My son would
have to also service that debt and his fife has been derailed for over ten years
due to this evil conspiracy and cover-up.
I am appearing pro se because I cannot afford legal representation since all of
my assets were stolen and I am no longer employable and cannot utilize my
intellectual property rights because they were also stolen from me without
any semblance of due process. Due to the malicious assault on my life, the
failure and refusal of the courts to permit any right of redress, and the
complete betrayal of my family by this country, I have been thrown into over
ten years of abject poverty. The courts forced a court-appointed attorney on
me, not to protect my rights but to steal them. It was the only way they could
accomplish the object of this criminal conspiracy. They enlisted a misogynous
retired attorney to act as judge and another misogynous retired attorney to
act as “defense counsel” to waive or forfeit all my rights. Without any
semblance of due process, my rights were waived and I was disposed of in
abstentia. It is unconstitutional per se for an attorney to serve as a judge
without taking the oath of office. The case law is clear that any judgment or
order he signs is null and void ab initio. But this court allowed it due to the
discrimination against my gender, religious beliefs, and the concealment of
1 Brady v. Maryland, 373 U S. 83 (1963).
2 Giglio v. United States, 405 U S. 150 (1972).
3 Kyles v. Whitley, 514 U.S. 419 (1995).
4 Strickler v. Greene, 527 U.S. 263,280-281 (1999).

3

i
the protection racket that protects these official racketeers. Without any
semblance of due process, these white male attorneys agreed among
themselves to discard me, intern me, subject me to extended interrogation
and extreme torture. No notice, no opportunity to be heard, ho ability to be
present. This is America. Whenever attorneys need to commit crimes and
retaliate against a female competitor, all they need do is pick another white
male misogynist and hand him a black robe, then grab another white male
misogynist to act as a sycophantic substitute decision-maker and waive or
forfeit all of her rights. This Court approves this deplorable, shocking, and
outrageous process. Over my strenuous objections, these five white male
attorneys of the far-right Republican Party of Texas committed these acts of
evil folly confident in the commission of their crimes knowing that their
political cronies would aid and abet the criminal enterprise because all
appellate judges were also members of the far-right Republican Party of
Texas. In a fair and impartial system that the founding fathers envisioned,
these professional predators would not have achieved the object of their
criminal conspiracy. I was not allowed to be heard, I had no effective
assistance of counsel, I had no fair and impartial tribunal, I had no lawful
judge, I had no speedy trial, I had no due process, I had no rights at all. But
this Court approved this cruel and unusual manner of outlawing a citizen.
Official retaliation is an act of domestic terrorism. No one represented my
interests because I was excluded and my advocates were barred. They knew
if I had a chance to defend myself and prove the truth, it would not be just
the fake witness who would be exposed for her Crimes, the entire enterprise
would be exposed. This was the very reason my adversaries kidnapped me
and held me in captivity for two years under false, fraudulent, and fabricated
premises. I had no legal representation and I was not allowed to participate
or even be present or speak. I filed my notice under Tex. Const. Art.' I, § 10 in
June 10, 2010, placing the State and court on notice that I would appear and
be heard in my own right and that I would appear through my counsel of
choice. I also filed a written demand for a speedy trial. I had my own retained
counsel. I complied with all the terms and conditions of the $50,000 surety
bail bond contract. It was illegal for a misogynous attorney who had been
retired for two decades to sua sponte “revoke” my bail and hold me in solitary
confinement with NO BAIL simply because I made the record proving he had
not taken the constitutionally required oath of office. Out of spite, he forced a
court-appointed retired misogynous former prosecutor on me and threw me
back in jail. This criminal conduct breached the bail bond contract and
violated my civil rights under the Texas bill of rights and the 6th amendment,
as clearly established in Faretta.
The illegal and unconstitutional Star Chamber was erected on February 28,
2011 and I have not had any civil rights or human rights since that time. The
courts have been allowed by this Court to continue imposing other and

4

i
unconstitutional result. These white male supremacists were able to suspend
the rule of law, the Constitution, and habeas corpus, and obstruct all appeals
for over five years and then simply “moot” all civil rights violations. I had no
right to be heard, to present my defense, confront the prosecutorial
misconduct, cross-examine and impeach the paid actress who served as the
only evidence, without any corroboration, in this prosecutorial fabrication of a
crime. I had no access to the evidence because the prosecutorial controlled
sycophant who was intoxicated throughout the trial had made a deal with the
prosecution not to show me any of the evidence! These were gross violations
of the 5th, 6th, and 14th amendments. Then, the sycophant refused to present
my defense or allow me to testify because he had reached secret, undisclosed
agreements with the prosecution. The Star Chamber fabricated a crime and
then dictated to the court-appointed sycophant what could be presented as a
defense to the fabricated crime legislated by the judiciary. This was a fraud
on the court that these white male attorneys participated in—both trial and
appellate and both state and federal were all Republican. The party platform
advocates violence against professional women and minorities, which they
believe is some form of threat to white male supremacy and their own
distorted cognitive schema of bigotry, misogyny, and extreme intolerance.
It was the state itself—or the judicial department of the state to be more
exact since the prosecutors and deputies who framed me with retaliatory
animus are housed in the judicial department in Texas—that engaged in
criminal conduct to render me indigent. This was a plan and scheme to force
me to proceed in forma pauperis so the courts are self-justified in depriving
“pro sS’ indigent litigants of all civil rights. It is a racketeering scheme to
nullify the bill of rights. All these attorneys have to do is rob a woman of her
property, obstruct justice, delay the case until she is indigent and this Court
will allow them to succeed. This Court will aid and abet them in keeping her
impoverished as they continue to steal, rob, disfranchise, and oppress her for
the rest and remainder of her life. Had the judiciary not acted illegally and
unconstitutionally, I would not have been fraudulently interned,
involuntarily committed, robbed of my wealth and personal property,
wrongfully convicted, permanently disfranchised, irrevocably disbarred,
robbed of my intellectual property rights without due process, and left
indigent. Had my civil rights not been repeatedly trampled and violated over
the past 10 years, I would not be forced to proceed in forma pauperis and
suffer the further and additional disfranchisements in the courts of this
country that routinely oppress those labeled “pro se? and that continue to
betray the marginalized members of society and breach the fiduciary duty
owed to the people to provide open, fair, and equal courts. It is
unconstitutional to outlaw me, but the courts simply could not care less
because they have a protection racket and weaponized immunity

6

1
Due to political cronyism, the trumped up trial courts, predatory prosecutors,
and dishonest deputies are protected by all of the appellate judges because all
of the appellate judges are Republican, just like the attorneys playing the role
of prosecutors, defense attorneys, and trial court judges who willfully
conspired to violate my civil rights. Further, the magistrate and federal
judges are all white male Republicans. There is no fair and impartial tribunal
for professional women, minorities, and immigrants in Texas or the 5th
Circuit due to the hate and hostility that this political party has adopted with
its oppressive far-right, totalitarian, white male supremacy, Fascist,
misogynous agenda with deep roots in the Ku Klux Klan and the eugenic
beliefs adopted by Hitler and the Nazi party. This party has willfully stacked
these federal courts from a private membership list provided by an
ideological organization. The majority of this Court is from that organization.
I am 63 years old and I have over 25 years of legal experience and education.
I have found a marked decline in the juridical knowledge of the Constitution
and history of this nation, which is leading this country down a perilous path.
I am a constitutional conservative and this current juridical agenda in Texas
and the 5th Circuit is a threat to the safety, security, and welfare of the
people, and is antithetical to this constitutional republic with its strong bill of
rights.
I aver that “My name is Carolyn Barnes, by date of birth is January 12, 1957,
and my address is 419 Indian Trail, Leander, Texas 78641 in the United
States of America. My daytime phone number is 512-817-8014. I declare
under penalty of perjury that the foregoing facts are true and correct.”
Executed in Williamson County, State of Texas on the 17th day of September
2020.

Carolyn Barnes

7

